No. 19-840

 

 

IN THE

Supreme Court of the United States

CALIFORNIA, ET AL., PETITIONERS
v.

TEXAS, ET AL.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURTS OF APPEALS
FOR THE FIFTH CIRCUIT

BRIEF FOR PROFESSORS MICHAEL C. DORF
AND MARTIN S. LEDERMAN AS AMICI CURIAE
IN SUPPORT OF PETITIONERS ON QUESTION TWO
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,850 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 13, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
